TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Internal Revenue Service Provides
                    Helpful Tax Law Assistance but Still Has
                     Problems With Tax Return Preparation
                                   Assistance



                                         August 24, 2007

                              Reference Number: 2007-40-164




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  August 24, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – The Internal Revenue Service Provides Helpful
                                Tax Law Assistance but Still Has Problems With Tax Return
                                Preparation Assistance (Audit #200740021)

 This report presents the results of our review to determine the quality of customer service the
 Internal Revenue Service (IRS) provides taxpayers who seek assistance when preparing their tax
 returns. This included assistance received from Taxpayer Assistance Centers, the Toll-Free
 Telephone Assistance Line, the Automated TeleTax Telephone Line (hereafter referred to as the
 TeleTax Line), the Free File Program, and IRS.gov (the public IRS web site).1 This review was
 part of our audit coverage of the Wage and Investment Division and was included in our
 Fiscal Year 2007 Annual Audit Plan.

 Impact on the Taxpayer
 Taxpayers who seek IRS assistance with tax law questions or tax return preparation have various
 options from which to choose, including Taxpayer Assistance Centers, the Toll-Free Telephone
 Assistance Line, the TeleTax Line, the Free File Program, and IRS.gov. Auditors posing as
 taxpayers used these services and generally had positive experiences obtaining answers to tax
 law questions; however, tax return preparation assistance was limited and presented challenges.
 These challenges can unnecessarily burden taxpayers.




 1
   Figure 1 in the report provides details about these and other customer service options available to individual
 taxpayers.
                        The Internal Revenue Service Provides Helpful Tax Law
                     Assistance but Still Has Problems With Tax Return Preparation
                                               Assistance



Synopsis
During the 2007 Filing Season,2 Treasury Inspector General for Tax Administration auditors
used five scenarios and posed as taxpayers to obtain answers to tax law questions and prepare tax
returns using various IRS services. The auditors’ overall experiences in obtaining answers to the
tax law questions were positive, and they received good customer service. Using Taxpayer
Assistance Centers, the Toll-Free Telephone Assistance Line, the TeleTax Line, and IRS.gov,
auditors were generally able to find answers to tax law questions and obtained correct answers
for 50 (94 percent) of 53 questions. However:
•     For 2 (4 percent) of the 53 questions, employees
      referred the auditors to publications to conduct                Using Taxpayer Assistance Centers,
      their own research.                                             the Toll-Free Telephone Assistance
                                                                      Line, the TeleTax Line, and IRS.gov,
•     For the remaining question, the assistor provided               auditors were generally able to find
      an incorrect answer. Had this incorrect tax return               answers to tax law questions and
                                                                         obtained correct answers for
      been filed, tax would have been underpaid by
                                                                        50 (94 percent) of 53 questions.
      $520.
Because of the complexity of the tax law, Taxpayer
Assistance Center assistors are trained to answer questions dealing with specific tax topics,
called in-scope topics, and are authorized to answer questions only within these topics. In-scope
topics are not published on IRS.gov; therefore, taxpayers may be unaware of these limitations
and may unnecessarily travel to Taxpayer Assistance Centers to ask their questions.
Taxpayers may also need to visit Taxpayer Assistance Centers multiple times before they receive
appointments to have tax returns prepared. Auditors made 32 visits to evaluate the scheduling
process or make this type of appointment and noted that:
•     For 7 (22 percent) visits, tax return preparation service was limited to specific days or times.
      However, IRS.gov and the Toll-Free Telephone Assistance Line do not inform taxpayers of
      service time limitations; therefore, taxpayers cannot identify them until they visit the
      Taxpayer Assistance Centers.
•     For 7 (22 percent) visits, screeners could not schedule appointments for the auditors within
      5 business days; in 4 cases, screeners asked the auditors to return on other days to try to
      schedule appointments.
•     For 14 (44 percent) visits, screeners required auditors to have all required documents with
      them before they would schedule appointments.



2
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                             2
                      The Internal Revenue Service Provides Helpful Tax Law
                   Assistance but Still Has Problems With Tax Return Preparation
                                             Assistance



•   For 16 (50 percent) visits, screeners did not ensure the auditors did not have tax issues that
    were beyond the scope of IRS tax return preparation services.
Auditors were able to prepare correct tax returns when using available tax forms, instructions,
and publications but were not always able to obtain or create correctly prepared returns when
using Taxpayer Assistance Centers and the Free File Program. Of the 36 tax returns prepared,
24 (67 percent) were prepared correctly.3 If 7 of the 12 incorrectly prepared tax returns had been
filed, taxpayers would have overpaid their taxes by $1,808. Alternately, if the 5 remaining
incorrectly prepared tax returns had been filed, taxpayers would have underpaid their taxes by
$5,120.

Recommendations
We recommended the Commissioner, Wage and Investment Division, include on IRS.gov the
types of questions Taxpayer Assistance Center assistors are authorized to answer, ensure
taxpayers know the scope of tax return preparation services offered at Taxpayer Assistance
Centers and what is required of them to schedule appointments and/or to have tax returns
prepared, and revise the appointment scheduling procedures to alleviate taxpayer burden.

Response
IRS management agreed with all of our recommendations. They will include on IRS.gov a list of
topics assistors are authorized to answer, a link to tax law topics, and the scope of tax return
preparation services offered in Taxpayer Assistance Centers. They will also consider options for
revising appointment procedures to alleviate taxpayer burden, including gathering data on repeat
visits to determine the causes. Management’s complete response to the draft report is included
as Appendix VI.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




3
  Although we are defining the mock returns as correct, we recognize that the final determination of the accuracy of
a return is subject to IRS and court interpretation.
                                                                                                                       3
                         The Internal Revenue Service Provides Helpful Tax Law
                      Assistance but Still Has Problems With Tax Return Preparation
                                                Assistance




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Obtaining Answers to Tax Law Questions Was Generally a
          Positive Experience.......................................................................................Page 5
                    Recommendation 1:........................................................Page 11

          Experiences Were Mixed When Tax Return Preparation
          Assistance Was Used ....................................................................................Page 11
                    Recommendations 2 and 3: ..............................................Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 17
          Appendix II – Major Contributors to This Report ........................................Page 19
          Appendix III – Report Distribution List .......................................................Page 20
          Appendix IV – Outcome Measure ................................................................Page 21
          Appendix V – Taxpayer Assistance Centers Visited During
          the 2007 Filing Season..................................................................................Page 22
          Appendix VI – Management’s Response to the Draft Report ......................Page 23
                  The Internal Revenue Service Provides Helpful Tax Law
               Assistance but Still Has Problems With Tax Return Preparation
                                         Assistance




                               Abbreviations

e-file; e-filing        Electronically File; Electronic Filing
IRS                     Internal Revenue Service
                      The Internal Revenue Service Provides Helpful Tax Law
                   Assistance but Still Has Problems With Tax Return Preparation
                                             Assistance




                                           Background

Providing quality customer service to taxpayers is the Internal Revenue Service’s (IRS) first step
toward achieving taxpayer compliance. During Tax Year 2005, approximately 49 million
taxpayers prepared their own tax returns without the assistance of a paid preparer.
Approximately 55 percent (26.8 million) of these taxpayers contacted the IRS for assistance in
the past 2 years. In addition, the IRS estimated it took individual taxpayers more than 11 hours
to prepare the simplest Tax Year 2005 return and more than 30 hours1 to complete a more
complex tax return with schedules.
Federal tax law is complex. Although average individual
taxpayers file simple tax returns and receive refunds, many of               Of the 124 million individual
                                                                               taxpayers who filed tax
their tax problems result from misunderstanding the tax law                 returns during Tax Year 2006,
and their tax obligations. Ensuring taxpayers understand and                more than 88 million received
comply with applicable tax laws are the overriding goals for                           refunds.
the IRS.
Taxpayers have different preferences and behaviors that affect their service needs. In addition,
their education levels, incomes, and physical abilities play key roles in determining what type of
service best meets their needs. The IRS’ challenge, and goal, is to meet taxpayer needs and
determine how to provide the best services with its limited resources.
The IRS offers individual taxpayers several prefiling service options, including paper and online
tax forms and publications, Taxpayer Assistance Centers (walk-in sites), the Toll-Free Telephone
Assistance Line, the Automated TeleTax Telephone Line (hereafter referred to as the TeleTax
Line), and IRS.gov (the public IRS web site). These options provide both assisted and
self-help service options. In addition, the IRS offers filing assistance through its Volunteer and
Free File Programs. The Volunteer Programs provide no-cost Federal tax return preparation and
electronic filing (e-filing) to underserved segments of individual taxpayers, including low- to
moderate-income, elderly, disabled, and limited-English-proficient taxpayers. The Free File
Program offers free, online tax preparation and e-filing through commercial tax return
preparation companies accessed via IRS.gov.
Figure 1 provides information regarding each of the customer service options provided by the
IRS.




1
 Included in the estimate are the U.S. Individual Income Tax Return (Form 1040), its schedules, and accompanying
forms.
                                                                                                         Page 1
                        The Internal Revenue Service Provides Helpful Tax Law
                     Assistance but Still Has Problems With Tax Return Preparation
                                               Assistance



          Figure 1: Customer Service Options Available to Individual Taxpayers

Toll-Free Telephone Assistance Line                         The Toll-Free Telephone Assistance Line assists
(800-829-1040)                                              taxpayers in understanding tax law and meeting tax
                                                            obligations. Live telephone assistance is offered
During the 2007 Filing Season,2 assistors answered
                                                            Monday – Friday, 7:00 a.m. to 10:00 p.m. local
almost 7 million calls from taxpayers.
                                                            time (Alaska and Hawaii follow Pacific Time).

Automated TeleTax Telephone Line                            The TeleTax Line has almost 150 recorded
(800-829-4477)                                              messages covering tax topics of interest to
                                                            individual taxpayers, including “Who Must File?,”
During the 2007 Filing Season, more than
                                                            Highlights of Tax Changes, Education Credits,
766,000 taxpayers called the TeleTax Line to
                                                            Individual Retirement Arrangements, Earned
receive assistance with tax law questions.
                                                            Income Tax Credit, and “What to Do if You Can't
                                                            Pay Your Tax.”

Taxpayer Assistance Centers                                 There are 401 Taxpayer Assistance Centers for
                                                            taxpayers who prefer face-to-face assistance.
During the 2007 Filing Season, Taxpayer
                                                            Taxpayers can obtain assistance with resolving tax
Assistance Centers served more than 2.2 million
                                                            problems, learning how the tax law applies to their
walk-in taxpayers. More than 361,000 of these
                                                            individual tax situations, preparing their tax returns,
taxpayers sought tax law assistance and more than
                                                            making payments on tax accounts, and more.
182,000 had their tax returns prepared.
                                                            However, tax law and tax return preparation
                                                            assistance is limited to less complex tax issues.

IRS.gov                                                     IRS.gov offers more than 39,000 webpages on
                                                            which taxpayers can, among other things, find
During the 2007 Filing Season, the IRS reported
                                                            information to answer their tax law questions; file
more than 133 million visits to IRS.gov.
                                                            tax returns; and obtain forms, instructions, and
                                                            publications.




2
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                           Page 2
                       The Internal Revenue Service Provides Helpful Tax Law
                    Assistance but Still Has Problems With Tax Return Preparation
                                              Assistance



Volunteer Programs                                          The IRS sponsors Volunteer programs, such as the
                                                            Volunteer Income Tax Assistance and the Tax
During the 2007 Filing Season, more than
                                                            Counseling for the Elderly Programs, to assist
2.4 million taxpayers visited Volunteer sites to
                                                            taxpayers in preparing tax returns. The Volunteer
have their tax returns prepared.
                                                            Income Tax Assistance Program offers free tax
                                                            help for low- to moderate-income (generally,
                                                            $39,000 and below) individuals who cannot
                                                            prepare their own tax returns. The Tax Counseling
                                                            for the Elderly Program offers free tax assistance to
                                                            people age 60 and over. For both Programs,
                                                            certified volunteers sponsored by various
                                                            organizations receive training to help prepare basic
                                                            tax returns.

Free File Program                                           The Free File Program is a free Federal tax
                                                            preparation and e-filing program for eligible
During the 2007 Filing Season, 3.7 million
                                                            taxpayers developed through a partnership between
taxpayers used the Free File Program to have their
                                                            the IRS and private-sector tax software companies.
tax returns prepared.
                                                            The Free File Program allows taxpayers with an
                                                            Adjusted Gross Income3 of $52,000 or less to
                                                            electronically file (e-file) their tax returns for free.

Forms, Instructions, and Publications                       The IRS provides taxpayers with many forms,
                                                            instructions, and publications to assist in
During the 2007 Filing Season, taxpayers
                                                            completing their tax returns. Taxpayers can obtain
downloaded 96 million documents from IRS.gov
                                                            these documents by ordering them via toll-free
including forms, instructions, and publications.
                                                            telephone lines, downloading them from IRS.gov,
                                                            or visiting a Taxpayer Assistance Center.
Sources: IRS Product Line Detail Reports, IRS Filing Season Reports, and Electronic Tax Administration
Download Reports.

Auditors posed as taxpayers
Recent research by the IRS indicates taxpayers are most concerned about resolving issues during
their first contact with the IRS and reducing the amount of time it takes to receive service. To
test this and other customer service-related issues, Treasury Inspector General for Tax



3
  Adjusted Gross Income is the total of a taxpayer’s taxable income sources (e.g., wages, salaries, tips, taxable
interest, dividends) minus specific deductions and expenses (e.g., educator expenses, the Individual Retirement
Arrangement deduction, student loan interest deductions). A taxpayer’s standard or itemized deduction is not
deducted from Adjusted Gross Income.

                                                                                                              Page 3
                      The Internal Revenue Service Provides Helpful Tax Law
                   Assistance but Still Has Problems With Tax Return Preparation
                                             Assistance



Administration auditors created five tax returns based on fictional taxpayers with typical tax
issues. Each tax return had one unresolved tax law issue.
To evaluate taxpayers’ experiences with prefiling assistance, auditors posed as taxpayers and
anonymously visited Taxpayer Assistance Centers,4 called the Toll-Free Telephone Assistance
Line and the TeleTax Line, and accessed IRS.gov to obtain answers to questions about the tax
law issue. The auditors asked 53 tax law questions through these 4 customer service options.
To evaluate taxpayers’ experiences when obtaining tax return preparation assistance, auditors
played the role of taxpayers and anonymously visited Taxpayer Assistance Centers; used the
Free File Program available through IRS.gov; and prepared tax returns using only IRS forms,
instructions, and publications downloaded from IRS.gov. Auditors used these services to
prepare 36 tax returns. Auditors did not visit Volunteer Income Tax Assistance Program and
Tax Counseling for the Elderly Program sites during the review because the Treasury Inspector
General for Tax Administration had conducted a separate audit to review these Volunteer sites.5
This review was performed at the Customer Account Services and Field Assistance Offices in
Atlanta, Georgia, and the Electronic Tax Administration and Media and Publications Offices in
Washington, D.C., during the period December 2006 through May 2007. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




4
 See Appendix V for specific cities and States visited during this audit.
5
 Accuracy of Tax Returns Prepared at Volunteer Sites Is Improving, but There Are Still Many Inaccuracies Because
Procedures Are Often Not Followed (Audit # 200740019, draft report issued June 22, 2007).
                                                                                                        Page 4
                    The Internal Revenue Service Provides Helpful Tax Law
                 Assistance but Still Has Problems With Tax Return Preparation
                                           Assistance




                                   Results of Review

Obtaining Answers to Tax Law Questions Was Generally a Positive
Experience
Using Taxpayer Assistance Centers, the Toll-Free Telephone Assistance Line, the TeleTax Line,
and IRS.gov, auditors were generally able to find answers to the questions and obtained correct
answers for 50 (94 percent) of 53 questions asked. Figure 2 presents results of the responses to
the auditors’ tax law questions.
          Figure 2: Results of Responses to Auditors’ Tax Law Questions

                                        Assisted Options               Self-Help Options
                                  Taxpayer           Toll-Free
                                 Assistance         Telephone
                                   Centers        Assistance Line   TeleTax Line    IRS.gov

      Correct Responses           15 (83%)          15 (100%)         5 (100%)     15 (100%)
      No Responses                 2 (11%)            0 (0%)           0 (0%)        0 (0%)
      Incorrect Responses           1 (6%)            0 (0%)           0 (0%)        0 (0%)

     Source: Auditors’ questions and responses.

Overall, auditors’ experiences were positive and they received good customer service. While all
taxpayer service options had advantages and limitations, the two telephone assistance lines and
IRS.gov provided the fastest and best experiences for the auditors. Nevertheless, the Taxpayer
Assistance Centers may be a preferred choice for taxpayers who want face-to-face assistance.
Depending on their characteristics and circumstances, taxpayers can use the service option(s)
that best meets their needs and desires.
The IRS has limited resources and is working to further improve the service it provides taxpayers
while dealing with its own unique challenges and a complex tax code. In April 2007, the IRS
issued the Taxpayer Assistance Blueprint, a 5-year strategy to improve customer service. The
Blueprint is designed to answer questions about the service needs and preferences of individual
taxpayers. IRS.gov states, “Because of the extensive research completed for the Blueprint, [the]
IRS now knows more than ever before about taxpayer needs, preferences and behaviors.”




                                                                                              Page 5
                   The Internal Revenue Service Provides Helpful Tax Law
                Assistance but Still Has Problems With Tax Return Preparation
                                          Assistance



The Toll-Free Telephone Assistance Line provided positive experiences
                             Auditors called the Toll-Free Telephone Assistance Line and asked
                             assistors 15 tax law questions. They obtained the information
                             needed to correctly prepare all 15 tax returns and generally waited
                             only a short time to speak with assistors. The assistors were
                             professional and took an average of 11 minutes to answer the tax
                             law questions. Each call was completed within 30 minutes.
                              Auditors waited an average of 2 minutes to speak with assistors.
However, on 1 occasion, an auditor waited more than 10 minutes. The 2-minute average wait
time was consistent with 2007 Filing Season results; the IRS reported the average wait time for
all tax law calls was just over 4 minutes.
Taxpayers can locate the Toll-Free Telephone Assistance Line number using several sources,
including local telephone books, the 2006 U.S. Individual Income
Tax Return (Form 1040) Instructions, Your Federal Income Tax            When calling the
(IRS Publication 17), and IRS.gov. They can call the Toll-Free        Toll-Free Telephone
Telephone Assistance Line between 7:00 a.m. and 10:00 p.m. local        Assistance Line,
time. When calling, taxpayers are given the option to hear menu      taxpayers  hear menu
                                                                     choices in English or
choices in English or Spanish. In addition, they may choose to          Spanish and may
listen to automated services or speak to a live assistor.              choose to listen to
                                                                         automated services or
Although auditors did not experience long periods on hold,                   speak to a live
taxpayers hear only music while waiting to speak to assistors and              assistor.
are not advised of wait time. The IRS is looking into providing
information on new tax laws or upcoming filing deadlines or dates
while taxpayers are on hold. In addition, it has requested funding in Fiscal Year 2008 to provide
taxpayers with a real-time message informing them about their expected wait time, which should
allow them to make more informed decisions based on the nature of their calls.
To answer tax law questions, assistors ask a series of questions, called probing questions, to
ensure they receive enough information to provide complete and accurate answers. At times, a
taxpayer may find the questions burdensome and time consuming, but tax laws often have many
exceptions and subtleties that require a thorough knowledge of the tax situation before an assistor
can provide an accurate answer.
Based on auditors’ experiences, the Toll-Free Telephone Assistance Line provided good service
for taxpayers who need tax law questions answered quickly–especially after normal business
hours. Without leaving the comfort of their homes, taxpayers can receive help from assistors
specifically trained to answer their simple or complex tax law questions.




                                                                                            Page 6
                        The Internal Revenue Service Provides Helpful Tax Law
                     Assistance but Still Has Problems With Tax Return Preparation
                                               Assistance



Taxpayer Assistance Center assistors usually provided correct answers, but the
tax law questions they are trained to answer are limited
                                        Auditors visited 18 Taxpayer Assistance Centers to ask tax law
                                        questions. The assistors were professional and, like the
                                        Toll-Free Telephone Line assistors, asked questions to ensure
                                        they received enough information to answer the auditors’
                                        questions completely and accurately. Auditors waited an
                                        average of 38 minutes to receive assistance, including 4 of
                                        18 visits during which the wait time exceeded 1 hour.
                                  Auditors obtained the information they needed to correctly
prepare 15 (83 percent) of 18 tax returns. For 1 (6 percent) of the 18 questions, the auditor
received an incorrect answer and would have been unable to prepare a correct tax return. Had
the tax return been filed, tax would have been underpaid by $520. For the remaining
2 (11 percent) questions, assistors did not provide answers to the tax law questions. Instead, they
advised the auditors to research IRS publications to obtain answers to the questions.6
•     One assistor advised the auditor that the answer to the tax law question could be found in a
      specific IRS publication and that the auditor’s research would probably be better than having
      the assistor state the answer.
•     Another assistor advised the auditor that an answer to the question could not be given
      because the assistor did not have access to the current IRS publication.
Taxpayer Assistance Center assistors must use the required tools to ask all the probing questions
outlined and answer tax law questions but only on topics for which they have been trained.
Unnecessary burden and frustration result when taxpayers travel to a Taxpayer Assistance
Center, wait to be assisted, and are not provided answers to their tax law questions.
Auditors were able to easily identify the addresses and hours of operation for the Taxpayer
Assistance Centers by visiting IRS.gov. However, IRS.gov does not provide details on the scope
of tax law assistance provided at the Taxpayer Assistance Centers, which is limited to less
complex tax topics.




6
    The two bulleted items have been summarized to meet privacy requirements.
                                                                                                Page 7
                   The Internal Revenue Service Provides Helpful Tax Law
                Assistance but Still Has Problems With Tax Return Preparation
                                          Assistance



Taxpayers can use several sources to easily locate Taxpayer Assistance Centers and
identify their hours of operation
Taxpayers wishing to visit a local Taxpayer Assistance Center can locate it by accessing IRS.gov
and following links to the “Contact My Local Office” webpage. Once there, taxpayers are
advised they can locate a Taxpayer Assistance Center in one of two ways:
1. To view a list of all Taxpayer Assistance Centers in a State, taxpayers can click on the map
   (as shown in Figure 3) or the State links provided by the web site. When taxpayers click on a
   State, the link takes them to a list of all Taxpayer Assistance Centers in that State and shows
   their addresses, hours of operation (usually between 8:30 a.m. and 4:30 p.m. local time),
   telephone numbers, and a link to services provided. Overall, auditors followed these steps
   and found it easy to locate the Taxpayer Assistance Centers they visited.
                               Figure 3: IRS.gov Navigation Map
                          for Locating Taxpayer Assistance Centers




                         Source: IRS.gov.

2. To identify the closest Taxpayer Assistance Center, taxpayers can enter their 5-digit ZIP
   Code into the Office Locator-Walk-In Site Search. Taxpayers entering a ZIP Code are also
   asked to select a search range (from 5 miles to 100 miles). Once a selection has been made,
   the Office Locater will produce a list of Taxpayer Assistance Centers within that range.
Taxpayers that do not have access to the Internet can find Taxpayer Assistance Center addresses
in local telephone books. They may also call the Toll-Free Telephone Assistance Line or the
Taxpayer Assistance Center’s local number to hear an automated message with this information.
Taxpayers cannot obtain answers to more complex tax issues at Taxpayer Assistance
Centers
Because of the complexity of the tax law and the need to assist more than 361,000 taxpayers with
tax law questions, assistors are not trained to answer all types of tax law questions. Instead, they
are trained to answer questions dealing with specific tax topics, called in-scope topics, and are

                                                                                             Page 8
                    The Internal Revenue Service Provides Helpful Tax Law
                 Assistance but Still Has Problems With Tax Return Preparation
                                           Assistance



authorized to answer only those questions within their scope of expertise. Because in-scope
topics are not published on IRS.gov, taxpayers may be unaware of these limitations and
unnecessarily travel to Taxpayer Assistance Centers to ask their questions.
When taxpayers ask Taxpayer Assistance Center assistors questions they are not authorized to
answer, assistors should offer to prepare written referrals to another IRS function(s) or to assist
taxpayers in calling the Toll-Free Telephone Assistance Line. During the 2007 Filing Season,
assistors made approximately 10,700 referrals to the Toll-Free Telephone Assistance Line.
Some of these referrals could have been avoided if the IRS had made taxpayers aware of the
topics assistors are able to answer by publishing the topics on IRS.gov, which would have
reduced the taxpayers’ burdens and travel costs. In addition, if the taxpayers referred by
assistors to the Toll-Free Telephone Assistance Line had initially called for assistance before
visiting the Taxpayer Assistance Centers, the IRS could have reduced its cost of providing
customer service by approximately $307,000.
While visiting Taxpayer Assistance Centers may be the most desirable service option for
taxpayers who want or need face-to-face assistance, many taxpayers may not find this option to
be the most efficient and effective method available for seeking answers to tax law questions. In
addition to limited hours of operation, Taxpayer Assistance Centers offer few advantages not
offered by other customer service options that provide answers to tax law questions.

The TeleTax Line provided accurate answers or directed callers to other services
                                Auditors called the TeleTax Line to obtain answers to five tax law
                                questions. They obtained correct answers and the information
                                they needed to correctly prepare all five tax returns. For
                                3 (60 percent) of the 5 calls, the prerecorded messages provided
                                information sufficient to answer the auditors’ tax law questions
                                and allowed them to prepare correct tax returns. For the other
                                2 calls (40 percent), the prerecorded messages did not provide
                                enough information to answer the tax law questions but did direct
the auditors to the correct publications and instructions to assist them in performing additional
research.
The prerecorded messages were generally concise. For 4 of 5 calls, the messages lasted 5 or
fewer minutes. Only the message addressing Earned Income Tax Credit issues lasted longer
(17 minutes); but this is a complex tax issue. Once the originally selected message ends,
taxpayers can disconnect the calls or elect to listen to other messages.
Taxpayers can easily locate the TeleTax Line number in various IRS publications and on
IRS.gov. In addition, the Form 1040 Instructions, IRS.gov, and the IRS Guide to Free Tax
Services (Publication 910) list the almost 150 individual tax topics provided on the TeleTax
Line. Once taxpayers call the TeleTax Line, they can navigate menu selections to hear any of
these messages in English and Spanish.
                                                                                              Page 9
                       The Internal Revenue Service Provides Helpful Tax Law
                    Assistance but Still Has Problems With Tax Return Preparation
                                              Assistance



While the TeleTax Line may not always answer taxpayers’ specific tax law questions, it provides
them with a valuable service at a relatively low cost to the IRS. Taxpayers can call the TeleTax
Line to hear prerecorded messages any time of the day or night. If the taxpayers are unable to
obtain answers, the messages will at least provide them with additional insight and direct them to
appropriate research materials, such as publications and instructions.

IRS.gov contains valuable information, documents, and publications to assist
taxpayers
                                          Auditors accessed IRS.gov to obtain answers to 15 tax law
                                          questions. For all 15 research sessions, auditors easily located
                                          webpages and the relevant information (usually publications)
                                          required to obtain the answers they needed to correctly
                                          prepare their tax returns. To find their answers, auditors
                                          generally used the easy-to-follow links or the IRS.gov search
                                          engine.7
                                   Auditors averaged approximately 24 minutes to research each
tax law question and credited the search engine on IRS.gov for allowing them to quickly access
pertinent information. In most instances, the search engine directed auditors to IRS publications
and instructions.
IRS.gov maintains many different sources of information to assist taxpayers in answering tax law
questions, including access to publications, tax topics, frequently asked questions, and
supplemental information for common tax issues. For example:
•   The Earned Income Tax Credit Assistant is an interactive tool that allows taxpayers to
    determine if they are eligible to claim the Earned Income Tax Credit on their tax returns.
•   The Alternative Minimum Tax Assistant is an interactive tool that helps taxpayers determine
    if they are subject to paying the Alternative Minimum Tax.
•   The Telephone Excise Tax Refund webpage contains answers to many common questions
    about this new tax issue.
IRS.gov enables the IRS to provide information to taxpayers at a relatively low cost per taxpayer
assisted and enables taxpayers to have 24-hour access to valuable information. However, while
IRS.gov does not yet provide interaction with subject-matter experts or assistors who are trained
to answer specific tax law questions, taxpayers who wish to do their own research may find
IRS.gov a valuable tool. The IRS is planning to further enhance IRS.gov through Taxpayer
Assistance Blueprint initiatives, including adding more tax law support tools and calculators that


7
 A search engine is a tool that acts as a card catalog. It attempts to index and locate desired information by
searching for keywords that a user specifies.
                                                                                                             Page 10
                      The Internal Revenue Service Provides Helpful Tax Law
                   Assistance but Still Has Problems With Tax Return Preparation
                                             Assistance



would enable users to conduct keyword queries and interactively receive answers to tax law
questions.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should include on
IRS.gov the types of questions Taxpayer Assistance Center assistors are authorized to answer.
When a taxpayer researches IRS.gov to locate the closest Taxpayer Assistance Center and
identify the services available, a link to a list of in-scope tax law questions should be
prominently displayed.
         Management’s Response: IRS management agreed with the recommendation.
         Management will include on IRS.gov a list of in-scope topics Taxpayer Assistance
         Center assistors are authorized to answer and will display on IRS.gov a link to the
         alphabetical list of in-scope tax law topics.

Experiences Were Mixed When Tax Return Preparation Assistance
Was Used
Auditors were able to prepare correct tax returns when using available tax forms, instructions,
and publications but were not always able to obtain or create correctly prepared returns when
using Taxpayer Assistance Centers and the Free File Program. Of 36 tax returns prepared,
24 (67 percent) were prepared correctly.8 Figure 4 provides the results of the tax return
preparation.
                           Figure 4: Results of Tax Return Preparation
                                               Taxpayer                             IRS Forms and
                                              Assistance           Free File        Publications on
                                                Centers            Program             IRS.gov
              Correct Tax Returns               6 (75%)            13 (57%)             5 (100%)

             Incorrect Tax Returns             2 (25%)             10 (43%)              0 (0%)
            Source: Auditors’ tax return preparation efforts.

If 7 of the 12 incorrectly prepared tax returns had been filed, taxpayers would have overpaid
their taxes by $1,808. Alternately, if the 5 remaining incorrectly prepared tax returns had been
filed, taxpayers would have underpaid their taxes by $5,120.




8
  Although we are defining the mock returns as correct, we recognize that the final determination of the accuracy of
a return is subject to IRS and court interpretation.
                                                                                                           Page 11
                    The Internal Revenue Service Provides Helpful Tax Law
                 Assistance but Still Has Problems With Tax Return Preparation
                                           Assistance



For the IRS, tax preparation assistance can be costly and require significant resources. The IRS
encourages taxpayers to use the Volunteer and Free File Programs for tax preparation assistance
so it can use its limited Taxpayer Assistance Center resources for other customer service needs.
The IRS estimates it costs $28.73 to assist a taxpayer who visits a Taxpayer Assistance Center.
In contrast, it costs only $12.01 when a taxpayer uses a Volunteer Program to prepare a tax
return.

Tax return preparation services at Taxpayer Assistance Centers can be time
consuming
                          Auditors made 32 visits to 30 Taxpayer Assistance Centers to evaluate
                          the screening and appointment process and to have 8 tax returns
                          prepared. Taxpayer Assistance Center employees were courteous and
                          professional. However, not all tax returns were prepared correctly, and
                          auditors experienced difficulties scheduling appointments for tax return
                          preparation. In 4 of 32 attempts, the auditors could not schedule
                          appointments.
                          Auditors had 8 tax returns prepared during their visits; 6 of the
8 (75 percent) were prepared correctly. The remaining 2 tax returns were incorrect because a
$112 Estimated Tax Penalty was imposed on each return. Assistors use checklists as an
interview tool to ask taxpayer probing questions and ensure information is obtained to accurately
prepare tax returns. However, the auditors were not asked questions sufficient to determine if
this Penalty was applicable.
Additionally, taxpayers may need to visit Taxpayer
Assistance Centers multiple times before they receive             Taxpayers may need to visit
                                                                 Taxpayer Assistance Centers
appointments. Taxpayers seeking tax return preparation            multiple times to have their
assistance must visit their local Taxpayer Assistance Centers        tax returns prepared.
to make appointments. Screeners at the Taxpayer
Assistance Centers are to ensure taxpayers qualify for return preparation assistance before they
schedule appointments for them. Of the 32 visits made to schedule appointments to have tax
returns prepared, auditors noted:
•   For 7 (22 percent) visits, tax return preparation service was limited to specific days or times.
    For example, one Taxpayer Assistance Center prepared tax returns only on Tuesdays and
    Thursdays, while another offered return preparation services only in the morning. The
    number of tax return preparation appointments available at each Taxpayer Assistance Center
    is based on the availability of assistors to perform the task. However, IRS.gov and the
    Toll-Free Telephone Assistance Line do not inform taxpayers of service time limitations;
    therefore, taxpayers cannot identify them until they visit the Taxpayer Assistance Centers.



                                                                                            Page 12
                    The Internal Revenue Service Provides Helpful Tax Law
                 Assistance but Still Has Problems With Tax Return Preparation
                                           Assistance



•   For 7 (22 percent) visits, screeners could not schedule appointments for the auditors within
    5 business days. In 4 cases, screeners asked the auditors to return on other days to try to
    schedule appointments. While IRS guidelines state screeners should schedule each
    appointment within 5 business days of the taxpayer’s visit, the guidelines also give Taxpayer
    Assistance Center managers the discretion to allow screeners to schedule appointments
    beyond 5 business days. However, the 4 Taxpayer Assistance Centers chose not to schedule
    appointments beyond the 5 business days and therefore would not schedule appointments for
    the auditors. In addition, 2 Taxpayer Assistance Centers scheduled appointments only within
    3 business days.
•   For 14 (44 percent) visits, screeners required auditors to have all required documents
    (e.g., driver’s licenses, income documents, and Social Security cards) with them before they
    would schedule appointments. IRS procedures require that screeners only ensure taxpayers
    are aware they need to bring these documents to their scheduled appointments. Taxpayers
    may be unaware they need to bring the documents with them to schedule appointments
    because IRS.gov does not show this as a requirement.
•   For 16 (50 percent) visits, screeners did not ensure the auditors did not have tax issues that
    were beyond the scope of IRS tax return preparation services. Because of the complexity of
    the tax law, assistors are not trained to deal with all potential tax issues. Instead, they are
    trained to deal with specific, in-scope tax topics and are not authorized to prepare tax returns
    with issues outside of these topics. Because in-scope topics are not published on IRS.gov,
    taxpayers may be unaware of these limitations.
When taxpayers are unaware of limitations–when Taxpayer Assistance Centers are either
limiting services to certain hours and days or limiting the scope of services–they can be
unnecessarily burdened. Taxpayers who have this information may be able to make more
informed decisions regarding their best options for obtaining tax return preparation assistance.
Those who do not have this information may need to make three or more visits to have tax
returns prepared.

The Free File Program requires users to already know tax law and provides little
support
                                     Auditors used the Free File Program to prepare 23 tax
                                     returns and correctly prepared 13 (57 percent). If 5 of the
                                     10 incorrectly prepared tax returns had been filed, taxpayers
                                     would have overpaid their taxes by $1,584. Alternately, if
                                     the 5 remaining incorrectly prepared tax returns had been




                                                                                            Page 13
                      The Internal Revenue Service Provides Helpful Tax Law
                   Assistance but Still Has Problems With Tax Return Preparation
                                             Assistance



filed, taxpayers would have underpaid their taxes by $5,120. Although auditors found the Free
File Program software easy to use,9 they believed the software did not always provide much
assistance in understanding tax law and did not always ask appropriate interview questions.
The IRS provides easy access to Free File Program software during the filing season by
providing taxpayers with a link on IRS.gov. Once linked to the Free File Program web site,
auditors were presented with a list of 19 service providers and the qualifications users must meet
for each service provider’s software.
For 15 (65 percent) of the 23 tax returns prepared, auditors knew the correct refund or amounts
of taxes owed. These auditors correctly prepared 11 (73 percent) of 15 tax returns. If the
4 incorrectly prepared tax returns had been filed, 1 taxpayer would have overpaid taxes by
$416 while 3 taxpayers would have underpaid taxes by $2,660. The four tax returns were
incorrectly prepared because:
•   The auditor was not prompted to include the Child Tax Credit and Retirement Savings
    Contribution on the tax return.
•   The software computed and allowed child care expenses and a Child Tax Credit, although the
    facts of the scenario did not allow for them.
•   The auditors were able to incorrectly claim the Head of Household filing status instead of the
    Single filing status. The interview questions were insufficient to ensure the correct filing
    status was claimed.
For the remaining 8 (35 percent) of 23 tax returns prepared, auditors did not know the correct
amounts of the refunds or taxes owed. The auditors were simply provided the scenario
(e.g., income, members of the household). These auditors correctly prepared 2 (25 percent) of
8 tax returns. If the 6 incorrectly prepared tax returns had been filed, 4 taxpayers would have
overpaid their taxes by $1,168 while 2 taxpayers would have underpaid their taxes by $2,460.
Again, the software allowed auditors to use an improper filing status or claim credits and
expenses to which they were not entitled. The interviews were not sufficient to ensure the
auditors claimed the correct filing status or received all credits and deductions to which they
were entitled.
According to Treasury Regulations,10 tax return preparers must exercise due diligence in
preparing or assisting in the preparation of tax returns filed with the IRS. In addition, the Free
File Program Operating Agreement requires Program members to guarantee the calculations
performed by their software packages.



9
   Recently, to evaluate taxpayers’ experiences with the Free File Program, the IRS conducted a satisfaction survey;
it indicated 94 percent of the users surveyed found the Program easy to use.
10
   Treas. Reg. § 10.22 (2005).
                                                                                                            Page 14
                     The Internal Revenue Service Provides Helpful Tax Law
                  Assistance but Still Has Problems With Tax Return Preparation
                                            Assistance



We previously reported the IRS does not adequately test Free File Program software to ensure
the accuracy of calculations.11 Taxpayers must be able to rely upon the accuracy and
thoroughness of the software they use to calculate their tax returns as well as believe they are
receiving quality service. If their tax returns are calculated incorrectly, taxpayers could
experience increased burden if later reviews (audits) of their tax returns identify the mistakes or
if they do not receive credits to which they are entitled. This could undermine taxpayers’
confidence in the Free File Program and negatively affect the IRS’ goal of increasing the number
of tax returns filed electronically.

Taxpayers who prepare tax returns manually have many sources of good
information

                           Auditors manually completed five tax returns using “paper” publications,
                           forms, and instructions. All five tax returns were prepared accurately.
                           Auditors took an average of 90 minutes to prepare the tax returns,
                           including obtaining and researching all pertinent documents.
                           The IRS provides many sources of information, such as publications and
                           instructions, that can assist taxpayers in preparing tax returns themselves.
                           These materials are easy to obtain and readily available. While the
                           instructions may be challenging to use due to the complexity of the tax
                           laws, they provide valuable information.
Auditors identified several options to obtain the forms, publications, and instructions they
needed. Taxpayers can:
•    Download forms and publications from IRS.gov, which provides more than 900 different
     documents including several available in Spanish and in audio versions for taxpayers with
     limited or no vision.
•    Visit a Taxpayer Assistance Center, each of which maintains the most commonly used forms
     and publications.
•    Call the Toll-Free Telephone Assistance Line to order any form or publication, including
     Spanish, large-print, and audio versions.
Auditors generally used IRS.gov to download the documents they needed and primarily used the
Form 1040 Instructions to guide them through preparing the Forms 1040. The Instructions
provide guidance for each line item on the Forms 1040 as well as tax tables, flowcharts, and
schedules, to assist taxpayers in computing credits or expenses they may be entitled to claim.


11
  Additional Action Is Needed to Expand the Use and Improve the Administration of the Free File Program
(Reference Number 2007-40-105, dated June 28, 2007).
                                                                                                      Page 15
                   The Internal Revenue Service Provides Helpful Tax Law
                Assistance but Still Has Problems With Tax Return Preparation
                                          Assistance



For more complex issues, the Form 1040 Instructions direct taxpayers to the specific IRS
publications addressing the issues.
Overall, taxpayers who do not wish to use other IRS customer service options or pay a preparer
to prepare tax returns may find the IRS provides many publications and instructions to assist in
meeting their tax obligations.

Recommendations
Recommendation 2: The Commissioner, Wage and Investment Division, should ensure
taxpayers know the scope of tax return preparation services offered at Taxpayer Assistance
Centers and what is required of taxpayers to schedule appointments and/or to have tax returns
prepared by publishing this information on IRS.gov.
       Management’s Response: IRS management agreed with the recommendation.
       Management will include information on IRS.gov regarding the scope of tax return
       preparation services offered in Taxpayer Assistance Centers and what is required of
       taxpayers to schedule appointments and/or to have tax returns prepared.
Recommendation 3: The Commissioner, Wage and Investment Division, should revise the
appointment scheduling procedures to alleviate taxpayer burden (e.g., having to return to
Taxpayer Assistance Centers multiple times just to schedule appointments to have tax returns
prepared).
       Management’s Response: IRS management agreed with the recommendation.
       Management agreed to review and consider options for revising appointment procedures
       to alleviate taxpayer burden, including gathering data on repeat visits to determine the
       causes.




                                                                                           Page 16
                       The Internal Revenue Service Provides Helpful Tax Law
                    Assistance but Still Has Problems With Tax Return Preparation
                                              Assistance



                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine the quality of customer service the IRS
provides taxpayers who seek assistance when preparing their tax returns. This included
assistance received from Taxpayer Assistance Centers, the Toll-Free Telephone Assistance Line,
the Automated TeleTax Telephone Line, the Free File Program, and IRS.gov (the public IRS
web site).1 To accomplish the objective, we:
I.       Judgmentally selected 31 (out of 401) Taxpayer Assistance Centers located in all 5 IRS
         geographical areas for auditors to visit and evaluate the screening and appointment
         process, have tax returns prepared, and/or ask tax law questions that an individual
         taxpayer might ask. We selected Taxpayer Assistance Centers located in large cities that
         also had multiple Centers in close proximity to each other. We used judgmental
         sampling because we did not plan to project any statistics over the entire population of
         Taxpayer Assistance Centers and statistical sampling would have required more audit
         resources than were available.
II.      Visited 30 Taxpayer Assistance Centers to evaluate taxpayers’ experiences when visiting
         Centers.
         A. Evaluated the screening and appointment process at 30 Taxpayer Assistance Centers.
            Two Centers were visited twice (for a total of 32 visits).
         B. Asked assistors to prepare a total of 8 tax returns at the 30 Centers visited.
         C. Asked assistors at 18 Taxpayer Assistance Centers a total of 18 tax law questions and
            determined if we could use the answers to prepare accurate tax returns.
         D. Evaluated the internal control breakdowns in the processes that led to preparation of
            inaccurate tax returns and/or less than satisfactory quality experiences.
III.     Determined the quality of customer service provided on the Toll-Free Telephone
         Assistance Line. We asked assistors 15 tax law questions and determined if we could use
         the answers to prepare accurate tax returns. We used judgmental sampling because we
         did not plan to project any statistics over the entire population of calls to the Toll-Free
         Telephone Assistance Line and statistical sampling would have required more audit
         resources than were available.


1
  Figure 1 in the report provides details about these and other customer service options available to individual
taxpayers.
                                                                                                             Page 17
                   The Internal Revenue Service Provides Helpful Tax Law
                Assistance but Still Has Problems With Tax Return Preparation
                                          Assistance



IV.    Determined the quality of customer service provided by researching printed tax forms,
       instructions, and publications on IRS.gov. We researched 15 tax law questions and
       determined if we could use the answers to prepare accurate tax returns. We used
       judgmental sampling because we did not plan to project any statistics over the entire
       population of printed tax forms, instructions, and publications on IRS.gov and statistical
       sampling would have required more audit resources than were available.
V.     Determined the quality of customer service provided by the Automated TeleTax
       Telephone Line. We listened to five prerecorded messages to determine if information
       regarding the tax law question topics was available and could be used to assist in the
       preparation of accurate tax returns.
VI.    Evaluated taxpayers’ experiences when using the Free File Program to have 23 tax
       returns prepared. We judgmentally selected 3 of the 19 Free File Program tax return
       preparation software providers based on the qualifications taxpayers would need to meet
       to use the software. We chose software providers in which the largest number of
       taxpayers would meet the criteria to qualify to receive assistance by using the software.
VII.   Determined the quality of self-help options available on IRS.gov and if research of
       available information provided correct answers to tax law questions. We prepared five
       tax returns using information available on IRS.gov.




                                                                                          Page 18
                  The Internal Revenue Service Provides Helpful Tax Law
               Assistance but Still Has Problems With Tax Return Preparation
                                         Assistance



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Frank Jones, Audit Manager
Kenneth L. Carlson, Jr., Lead Auditor
Jerome Antoine, Auditor
Jerry Douglas, Auditor
David Hartman, Auditor
Andrea Hayes, Auditor
Mary Keyes, Auditor
John Mansfield, Auditor
Geraldine Vaughn, Auditor




                                                                                   Page 19
                  The Internal Revenue Service Provides Helpful Tax Law
               Assistance but Still Has Problems With Tax Return Preparation
                                         Assistance



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance SE:W:CP
Director, Customer Account Services SE:W:CAS
Director, Customer Assistance, Relationships, and Education SE:W:CAR
Director, Electronic Tax Administration SE:W:ETA
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 20
                        The Internal Revenue Service Provides Helpful Tax Law
                     Assistance but Still Has Problems With Tax Return Preparation
                                               Assistance



                                                                                                   Appendix IV

                                        Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:

•     Taxpayer Burden – Potential; 13 incorrect tax returns and answers to tax law questions
      (see pages 5 and 11).

Methodology Used to Measure the Reported Benefit:

If the accuracy results for the 53 tax law questions asked and 36 tax returns prepared during the
2007 Filing Season1 are indicative of the actual responses and services taxpayers receive when
they use IRS programs to assist them in preparing and filing tax returns, we estimate
13 taxpayers could have received incorrect tax returns and/or responses to tax law questions.




1
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                        Page 21
                          The Internal Revenue Service Provides Helpful Tax Law
                       Assistance but Still Has Problems With Tax Return Preparation
                                                 Assistance



                                                                                                    Appendix V

        Taxpayer Assistance Centers Visited During the
                     2007 Filing Season                                           1




                                                                                                           Boston
                                                                                                          Stoneham
                                Tacoma                                                Baltimore           Worcester
                                                           Chicago
                                                                                      Wheaton
                                                         Downers Grove




                                                                                                              Charlotte
San Francisco                                                                                                  Durham
                                                                                                             Greensboro
                                                                                                               Hickory
             Phoenix (Dunlap)                                                                                  Raleigh
              Phoenix (Earll)                                                                               Winston-Salem
                                                                                   Athens
                 Tempe
                                                                              Atlanta (Tulane)
                 Tuscon              Houston (Gessner)
                                                                              Atlanta (Smyrna)
                                      Houston (Smith)
                                                                  Houma          Gainesville          Plantation
                                                                New Orleans        Macon           Port Saint Lucie
                                                                                                   West Palm Beach




1
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                               Page 22
       The Internal Revenue Service Provides Helpful Tax Law
    Assistance but Still Has Problems With Tax Return Preparation
                              Assistance



                                                     Appendix VI

Management’s Response to the Draft Report




                                                            Page 23
   The Internal Revenue Service Provides Helpful Tax Law
Assistance but Still Has Problems With Tax Return Preparation
                          Assistance




                                                        Page 24
   The Internal Revenue Service Provides Helpful Tax Law
Assistance but Still Has Problems With Tax Return Preparation
                          Assistance




                                                        Page 25
   The Internal Revenue Service Provides Helpful Tax Law
Assistance but Still Has Problems With Tax Return Preparation
                          Assistance




                                                        Page 26
